                           AUDIT REPORT
                      FOR OFFICIAL USE ONLY




  Fiscal Year 2007 Review of Information Systems Controls in
           Support of the Financial Statements Audit

                                     2008-DP-0003

                                     March 4, 2008


   This is a LIMITED DISTRIBUTION audit report. The OIG has determined that the
    contents of this audit report would not be appropriate for public disclosure and has
therefore limited its distribution to those officials listed on the report distribution list. As a
  recipient of this report, you must safeguard the audit report from unauthorized release.


                            OFFICE OF AUDIT
                  INFORMATION SYSTEMS AUDITS DIVISION
                           WASHINGTON, DC
